             U.S. DEPARTMENT OF THE INTERIOR
                 OFFICE OF INSPECTOR GENERAL




WHY WE
                                      Following up on audit recommendations
ESTABLISHED                           is a responsibility assigned to heads of all
AN AUDIT                              executive departments, according to
                                      Office of Management and Budget
FOLLOWUP                              Circular No. A-50, “Audit Followup.”
UNIT                                  The Circular states that agencies should
                                      “assign a high priority to the resolution of
                                      audit recommendations and to corrective
actions” and emphasizes “the importance of monitoring the implementation of
resolved audit recommendations in order to assure that promised corrective action
is actually taken.”

The Office of Inspector General (OIG) established the Audit Followup Unit in
August 2000 to facilitate and expedite the implementation of audit report
recommendations. The Followup Unit, by providing information on the status of
audit report recommendations that are scheduled for implementation, intends to
promote timely implementation of actions that improve the efficiency and
effectiveness of Government operations; deter waste, fraud, and abuse; ensure
compliance with laws and regulations; and foster innovative approaches to the
delivery of governmental services.
     HOW WE FOLLOW UP                                    Audit recommendations typically
                                                         are classified as implemented if
ON A ON AUDIT                                            corrective actions have been
     RECOMMENDATIONS                                     taken; unimplemented if agreed-
                                                         upon corrective actions have not
                                                         been taken or have not been
                                                         completed; or unresolved if OIG
        and the audit client do not agree on the need for or the method of correcting a
        reported deficiency.

        After audit reports are issued, recommendations that are unimplemented or
        unresolved are referred to the Department of the Interior’s (DOI) Management
        Accountability and Control Division, under the Office of the Assistant Secretary
        for Policy, Management and Budget (PMB), for tracking of implementation
        and/or for resolution. The Division maintains information on the status of audit
        report recommendations, determines whether DOI or its bureaus have
        implemented corrective actions, and resolves disputed recommendations.

  THEN . . .

        Before creation of the Followup Unit, OIG did not obtain information on the
        status of implementing actions until after PMB “closed out” all recommendations
        in an audit report. Although OIG occasionally performed followup audits after
        report closure to determine whether adequate and appropriate remedial actions
        had been taken, these audits often were not conducted for years after the first
        recommendations had been implemented. Because a significant amount of time
        usually elapsed between final report issuance and closeout of all
        recommendations, deficiencies identified in followup audits, such as lost revenues
        or noncompliance with laws and regulations, remained undetected and
        uncorrected for many years when implementing actions were not taken or were
        ineffective.

  AND NOW . . .

        With establishment of the Followup Unit, OIG receives information from PMB on
        the implementation of individual audit recommendations shortly after PMB
        determines that the recommendations have been implemented. The Unit has
        developed a database of audit recommendations to track the planned date of
        implementing corrective actions, the actual date of implementing actions, and the
        status of unresolved recommendations. Using PMB’s data and accessing its own
        database, the Unit selects recommendations for review that were classified as
        implemented during the reporting period and reviews the implementation of
        individual recommendations on a near real-time basis. After completing the
        reviews, the Unit informs PMB, the Assistant Secretaries, and bureau heads of its


                                            2
           results. If applicable, the Unit requests PMB to reinstate recommendations as
           unimplemented and discusses with responsible bureau officials its concerns about
           implementing actions. Periodically, the Unit will issue reports, such as this one,
                                                      to provide information on the status of
                                                      implementing actions.
WHAT
       WHAT INFORMATION                               This report provides information on
                                                      recommendations that were scheduled
       WE REPORT                                      for implementation during the period
                                                      July 1 through December 31, 2000;
           recommendations that were implemented during this period (regardless of the
           scheduled implementation date); and the results of our limited reviews of selected
           recommendations that were reported as having been implemented during the
           reporting period. We selected for review recommendations that were contained in
           our performa nce audit reports, excluding recommendations in territorial audit
           reports that were not referred to PMB for resolution or tracking of
           implementation.




                          Profile of Audit Recommendations
                  for the Period July 1 through December 31, 2000
                                         Recommendations
                                         Scheduled for                 Recommendations
                                         Implementation                Implemented
                                         Before or During              During
           Bureau                        Reporting Period              Reporting Period

  Bureau of Reclamation                          37                            13
  Bureau of Land Management                      30                             6
  Bureau of Indian Affairs                       23                             2
  National Park Service                          16                             8
  U.S. Fish and Wildlife Service                 16                             3
  U.S. Geological Survey                          3                             1
  Minerals Management Service                     3                             0
  Office of Surface Mining
    Reclamation and Enforcement                   1                             0
  Office of the Secretary                        22                             3
  Multi-Office                                   10                             0

  Totals                                        161                            36




                                                3
Status of Implementation
     The chart “Status of Recommendations” (page 5) illustrates the recommendations
     implemented and pending implementation during the period July 1 through
     December 31, 2000. There were 36 total recommendations reported by PMB as
     implemented for this period. As indicated in the chart, the recommendations
     reported as implemented consisted of the following:

            (A) 22 of 143 recommendations that were pending implementation as of
                June 30, 2000.
            (B) 6 of 18 recommendations that were due for implementation during the
                period July 1 through December 31, 2000.
            (C) 6 recommendations for which no target dates were established.
            (D) 2 recommendations that were not due for implementation until after
                December 31, 2000.

     Of the 22 recommendations pending implementation, the average number of days
     between the initial target date for implementation and the actual implementation
     date was 658 days. As of December 31, 2000, another 12 recommendations were
     resolved but had no target date for implementation of corrective action, and 19
     recommendations were unresolved.

Review Method and Sample Selection

     In performing followup reviews, we contacted responsible DOI and bureau
     program officials and the auditors and audit managers who conducted the audit
     fieldwork and prepared the audit report. Our limited review consisted of
     interviewing these officials and examining records, reports, and other
     documentation that we considered necessary to determine whether the
     implementing actions were responsive to the audit recommendation. Because we
     reviewed individual recommendations and not all recommendations applicable to
     a particular finding, we cannot state with certainty that the implementing action
     will correct the underlying deficiency. For those recommendations that we
     consider to be unimplemented, not fully implemented, or not effectively
     implemented, we may schedule full-scale followup audits to more
     comprehensively evaluate the actions needed to correct operational deficiencies.

     Of the 36 recommendations that were classified by PMB as implemented during
     the period July 1 through December 31, 2000, we reviewed the implementing
     actions pertaining to 7 recommendations. We selected items for review on a
     judgmental basis.




                                         4
FOLLOWUP                       ♦ Audit Summary: “Administration of
REVIEW                         Grants Awarded Under the North American
                               Wetlands Conservation Act, U.S. Fish and
RESULTS                        Wildlife Service” (No. 97-I-1112), dated August
                               1997. The audit objective was to determine
 whether the U.S. Fish and Wildlife Service (FWS) administered grant awards
 effectively and in compliance with laws, regulations, and FWS policies.

 The subject audit pertained to the administration of grants that FWS was
 authorized to award under the North American Wetlands Conservation Act.
 Conservation Act grants, awarded to partner organizations, provided for the
 organizations to conduct wetlands conservation projects. The Act, grant
 agreements, and Federal regulations and policies governed grant cost-sharing
 arrangements, the types of project costs that could be charged to grants and
 reimbursed by the Government, and the administrative provisions for reporting
 project activity and processing grant reimbursement requests.

 Recommendation A.2 Analyze the grants covered by the review in which
 auditors questioned costs that were reimbursed or credited to grantees and resolve
 improper reimbursements or claimed contributions as appropriate. The target date
 for implementation was June 30, 1998.

 In the report, auditors stated that costs of about $607,000 may have been
 inappropriately reimbursed and questioned additional costs of about $406,000 that
 were credited to grantees as their project contributions.

 According to PMB, this recommendation was implemented by September 30,
 2000.

         Review Results. For our followup review, we obtained a schedule
 prepared by the Chief, Division of Bird Habitat Conservation, which described
 FWS’s analysis of questioned grant costs. From the schedule, we selected for
 review 5 of 12 audited grants with questioned costs of $862,084. FWS provided
 documentation to show that questioned costs of $292,171 were reimbursed or
 credited as appropriate. FWS also justified the remaining costs of $569,913 as
 (1) an “allowable budget change” under provisions of Part 43 of the Code of
 Federal Regulations (43 CFR 12.70) or (2) “budgeted ‘contract’ costs.”

 We disagree with FWS regarding the appropriateness of its disposition of the
 remaining questioned costs. We found that although 43 CFR 12.70 allows
 grantees to make program changes to the approved project, it requires the prior
 written approval of the awarding agency “whenever the awarding agency’s share
 [of costs] exceeds $100,000” and the charges exceed 10 percent of the budget.
 The costs we continue to question relate to grants that had more than $100,000 of
 federal funding and rebudgeted costs of more than 10 percent of the approved


                                     6
budget. For these budget changes, the grantee did not request and FWS did not
offer prior approval. Also, we do not consider the reimbursed overhead cost to be
“budgeted ‘contract’ costs.” For this expense, reimbursement was paid to an
organization that performed work under a cooperative agreement, despite a
provision in the grant proposal that stated that the work would be performed
under a competitively awarded contract. Although we differ with FWS on the
appropriateness of its disposition of questioned grant costs, we consider the
recommendation implemented because FWS did conduct the recommended
analytical review to resolve the questioned reimbursements and credits.
Nonetheless, based on issues raised in our limited followup review about the
appropriateness of certain costs, we may conduct a future audit of grants awarded
under the North American Wetlands Conservation Act.

♦ Evaluation Summary: “Selected Management Activities at Manassas
National Battlefield Park, National Park Service” (No. 98-I-686), dated
September 1998. The objective of this evaluation was to determine whether the
National Park Service (NPS) took actions to improve safety at an intersection
(Routes U.S. 29 and VA 234) within the Park and executed land use practices that
were in accordance with applicable requirements.

This evaluation was conducted in response to a request from a Congressman who
was concerned about unsafe traffic conditions within the Park.

Recommendation A.1. Ensure that funds needed for the study are requested and
that Park officials conduct the study required by Public Law 100-647 to identify
ways to close Routes U.S. 29 and VA 234. The target date for implementation
was September 30, 2000.

The Assistant Secretary for Fish and Wildlife and Parks, in a December 1998
letter to OIG, said that NPS had obtained funding to complete a study for
relocating commuter traffic outside the Park.

According to PMB, NPS implemented this recommendation on September 30,
2000.

       Review Results. In our followup review, we contacted the Park
superintendent, who was designated as the official responsible for
implementation, and requested a copy of the study. The superintendent said that
NPS currently “was negotiating the final price for the study” and that the study
“probably” would not be completed until 2003.

Based on the Park superintendent’s statement, we considered the recommendation
not to be fully implemented. After notifying PMB and NPS of our conclusion
regarding implementation, an NPS official contacted PMB and stated that NPS
was “only the requestor of the study” and “by requesting the Congress to fund the
study, . . . NPS has fulfilled its obligation to implement [the recommendation].”


                                    7
We found, however, that NPS was responsible for conducting the study. In a
Memorandum of Agreement with the Federal Highway Administration and the
Virginia Department of Transportation, NPS and the Highway Administration
agreed to “function as joint-lead agencies” for the safety improvement project.
Also, Public Law 100-647 assigned DOI (and, by delegation, to NPS)
responsibility for conducting the study “in consultation and consensus” with
Virginia and Federal highway officials. Because NPS is responsible for the study,
which has not been initiated, we have requested that PMB reinstate the
recommendation as unimplemented.

Recommendation A.2. Ensure that the Park Superintendent works with the
Commonwealth of Virginia’s Department of Transportation to determine a
mutually acceptable approach to improve safety at the intersection of Routes
U.S. 29 and VA 234. Implementation was scheduled for September 30, 2000.

The Assistant Secretary for Fish and Wildlife and Parks said that NPS had
reached a tentative agreement with Virginia highway officials on an “interim
solution” to improve road safety at the intersection. He also said that the Virginia
Department of Transportation would “be a full partner,” working with NPS to
develop an alternative route that would “move commuter traffic out of the park.”

According to PMB, NPS implemented this recommendation on September 30,
2000.

        Review Results. Following up on this recommendation, we reviewed
documentation submitted to PMB by NPS. The documentation included an
agreement between the Federal Highway Administration, NPS, and the Virginia
Department of Transportation for the design and construction of safety
improvements at the intersection of Routes U.S. 29 and VA 234. The agreement,
which specified the responsibilities of all parties, terms for the disbursement of
funds, and administrative conditions and identified key project contacts, was
ratified by April 1999.

Based on the documentation (the agreement between NPS, Virginia highway
officials, and Federal highway officials), we consider the recommendation
implemented as of April 1999, 5 months earlier than the scheduled
implementation date.

♦ Audit Summary: “Deferred Maintenance, National Park Service”
(No. 99-I-959), dated September 1999. The objective of the audit was to
determine whether actions were needed to ensure that NPS’s deferred
maintenance accounting and budgetary information was current, complete, and
verifiable.

This audit evaluated NPS’s fiscal year 1998 estimated deferred maintenance
costs. Of estimated fiscal year 1998 deferred maintenance costs of $3.6 billion,


                                     8
auditors reviewed costs of $185.5 million. Auditors found that NPS’s deferred
maintenance cost estimates were not developed in accordance with Federal
accounting standards and DOI guidance because NPS had not conducted all
needed condition assessments of its assets, documented its estimated deferred
maintenance costs, or established adequate controls to ensure the completeness
and reliability of its deferred maintenance data.

Recommendation A.1. Establish a plan for the timely completion of condition
assessments on all NPS assets subject to deferred maintenance reporting. The
plan should establish a standard set of criteria for evaluating asset condition and
require maintenance of documentation on the assessments. The target date for
implementation ranged from April 30, 2000 for highway assets to September 30,
2002 for employee housing assets.

According to PMB, NPS implemented this recommendation as of September 30,
2000.

         Review Results. We reviewed NPS’s “Asset Management Plan,” which
was submitted to PMB as documentation of corrective action implementation.
The Plan provided guidance on inventorying park facilities, defined “mission
critical” as a category of assets for which condition assessments were required,
and established target dates for completing condition assessments. This guidance,
in our opinion, implemented the first part of our recommendation. However, the
Plan did not establish a uniform set of criteria for evaluating asset condition (such
as determining poor, fair, and good condition) and did not require maintenance of
documentation on condition assessments, although it did establish a series of
goals for accomplishing these tasks.

Because NPS did not establish a standard set of criteria for evaluating asset
condition and did not require maintenance of documentation on condition
assessments, we consider Recommendation A.1 not fully implemented. We
notified PMB and NPS that the recommendation, in our opinion, should be
reinstated as unimplemented.

Recommendation A.2. Require qualified NPS personnel to prepare
documentation to support deferred maintenance cost estimates that includes
details on the material, labor, and overhead costs needed to complete the projects;
the bases for these costs; and the method used in arriving at the estimated costs.
The target date for implementation ranged from August 1, 2000 for Project
Management Information System (PMIS) assets to December 31, 2000 for
highway assets.

According to PMB, NPS implemented this recommendation as of September 30,
2000.




                                      9
        Review Results. To document implementation of this recommendation,
NPS prepared a memorandum, “Deferred Maintenance Reporting Requirements
(FASAB #6),” which provided “direction and guidance” to NPS regional directors
on developing deferred maintenance cost estimates. The memorandum stated that
NPS would “at least” prepare “a conceptual cost estimate based on square foot
costs of similar work or identifiable unit costs of similar work.” The
memorandum also directed regional managers to include support documentation
of cost estimates in its PMIS project statement but did not require support
documentation on cost estimates for deferred maintenance assets such as dams,
bridges, roads, and employee housing, which are not recorded in PMIS.

Because DOI has assigned a high priority to the funding of NPS’s deferred
maintenance and the Office of Management and Budget has requested audit
coverage of this subject, OIG will conduct a separate and comprehensive review
of NPS’s deferred maintenance program. As part of the review, we will
determine whether regional directors implemented the Reporting Requirements
guidance applicable to projects recorded in PMIS and also to projects included in
NPS’s separate databases for its employee housing, roads and bridges, and dams
deferred maintenance projects.

♦ Audit Summary: “Followup Review of Selected Recommendations in
Audit Report ‘Followup of Recommendations Concerning Repayment of
Municipal and Industrial Water Supply Investment Costs, Bureau of
Reclamation’” (No. 00-I-270), dated March 2000. The objective of the audit was
to determine whether the Bureau of Reclamation (BOR) had taken sufficient
actions to implement the recommendations made in an August 1992 audit report
(No. 92-I-1128).

This audit followed up on the 1992 audit report that found that BOR was not fully
recovering the Government’s costs of financing municipal and industrial water
supply facilities that were originally constructed to supply water for irrigation
purposes. The followup audit found that BOR had not taken sufficient action to
recover costs. Auditors concluded that BOR should develop procedures or
conduct reviews to ensure that changes in water use are identified and measures
taken to ensure that water is used in accordance with contract provisions.

Recommendation A.1. Establish uniform and consistent control procedures that
require periodic reviews of annual project water use to ensure that the quantity
delivered and used is in conformance with the water contracts. These procedures
should include provisions to collect and verify annual water use data, determine
whether the use of the water is in accordance with contract terms, and maintain
documentation of the verifications performed and the determinations made. The
target date for implementation was September 30, 2000.

According to PMB, BOR implemented this recommendation as of September 30,
2000.


                                    10
        Review Results. We reviewed documentation that BOR submitted to
PMB as support for BOR’s implementation of this recommendation. The
documentation consisted of the September 2000 memorandum “Periodic Review
of Water Deliveries with Respect to Contract Terms” and the “Checklist for
Review and Verification of Contractor Water Use.” Because BOR developed
procedures that provided for the collection and verification of annual water use
and for periodic reviews to document water use, we consider this recommendation
implemented.

Recommendation A.3. Until Recommendation A.1 is fully implemented, report
BOR’s lack of adequate procedures to identify water conversions in BOR’s
annual assurance statement on management controls as a material weakness under
the Federal Managers’ Financial Integrity Act. The target date for
implementation was September 30, 2000.

According to PMB, BOR implemented this recommendation as of September 30,
2000.

        Review Results. We obtained documentation that was prepared after the
recommendation was reported as implemented, including copies of periodic
reviews that showed that BOR applied the procedures in Recommendation A.1 for
collecting and verifying water use data. These reviews, which BOR conducted at
four projects, monitored water use and compliance with contract provisions.
Because BOR, by conducting the reviews, implemented Recommendation A.1,
we consider Recommendation A.3 implemented. However, because water use
conversions and compensation for conversions are complex issues, we plan to
assess, on a selected basis, BOR reviews of annual project water use to determine
whether the application of the procedures has corrected the underlying problem.

The results of our reviews are summarized in the Appendix.




                                   11
                                                               APPENDIX



                    STATUS OF REVIEW RESULTS



      Report/Recommendation                         Results

Administration of Grants Awarded Under
the North American Wetlands
Conservation Act, U.S. Fish and
Wildlife Service (No. 97-I-1112)

                 A.2                          Implemented


Selected Management Activities at
Manassas National Battlefield Park,
National Park Service (No. 98-I-686)

                 A.1                          Unimplemented

                 A.2                          Implemented


Deferred Maintenance, National Park
Service (No. 99-I-959)

                 A.1                          Unimplemented


Followup Review of Selected
Recommendations in Audit Report
“Followup of Recommendations
Concerning Repayment of Municipal
And Industrial Water Supply Investment
Costs, Bureau of Reclamation”
(No. 00-I-270)

                 A.1                          Implemented


                 A.3                          Implemented
                                              (Audit planned to evaluate
                                              the adequacy of controls over
                                              water use conversions.)




                                         12
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL



                     Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           H OT LI N E
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
